                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM




           In November 2005, we received allegations of plagiarism against the subject.' The complainant
           broke his allegations into three parts: (I) potential self-copying; (2) potential copying without
           referencing; and (3.) potential inappropriate copying.
           By definition, NSF does not consider self-copying (1) to be Research s is conduct.^
           With regard to (2), the complainant alleged plagiarism (intellectual theft) in (a) two of the
           subject's published papers,3 (b) the subject's NSF proposal,4 and (c) an unpublished manuscript
           the complainant said was rejected by the journal to which it was submitted. Specifically, the
           complainant alleged the subject used another scientist's methodology5 without citation. The
           subject has not received an NSF grant and his papers (a), not surprisingly, do not acknowledge
           NSF support. We conclude we have no &uisdiction over allegation (a). The subject's proposal
           (b) appears to have made significant use of the scientist's methodology. While the subject did
           not cite the scientist's methodology at the equations wher-e he utilized it, he referenced seven of
           the scientist's papers a total of eight times in the Introduction and in Related Work, including
           mentioning the scientist by name when describing the scientist's methodology he planned to
           utilize. We conclude there was no failure on the part of the subject to indicate to the reader he is
           aware of, makes use of, and credits the scientist's methodology. As noted, the unpublished
           manuscript (c) was rejected, so there is no publication to review, and if there were, we would not
           have jurisdiction because it would not have been done with NSF support.
           The complainant alleged potential inappropriate copying (3) by the subject in a paper.6 AS noted
           above, the subject has not received NSF support, and we do not have jurisdiction over the
           allegation.
           Since the allegation was plagiarism, we ran the proposal through our plagiarism software. It
           identified no significant coping.
           Given the subject's lack of previous NSF funding, most of the allegations were not within our

111         ' The subject i             s                 .




  NSF OIG Form 2 (1 1/02)   .
                                             NATIONAL SCIENCE FOUNDATION
                                              OFFICE OF INSPECTOR GENERAL
                                                OFFICE OF INVESTIGATIONS

                                        CLOSEOUT MEMORANDUM
    -          -            -       -




3ase Number:       A   \,   o, ,+                                           11          Page 2 of 2



    jurisdiction. As described above, our review of the proposal did not raise any intellectual theft
    issues. Therefore, we conclude there is no substance to this allegation and, accordingly, this case
    is closed.
